            Audit Report



  Title II Beneficiaries Receiving
Benefits Under the Lawful Presence
         Payment Provisions




       A-09-12-21288 | May 2014
MEMORANDUM


Date:      May 20, 2014                                                       Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions
           (A-09-12-21288)

           The attached final report presents the results of our audit. Our objective was to assess the
           effectiveness of the Social Security Administration’s controls to ensure it pays beneficiaries in
           accordance with the lawful presence payment provisions.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Title II Beneficiaries Receiving Benefits Under the Lawful
Presence Payment Provisions
A-09-12-21288
May 2014                                                                   Office of Audit Report Summary

Objective                                  Our Findings

To assess the effectiveness of the         SSA needs to improve its controls to ensure it pays beneficiaries in
Social Security Administration’s           accordance with the lawful presence payment provisions. SSA did
(SSA) controls to ensure it pays           not obtain or retain evidence of lawful U.S. presence for
beneficiaries in accordance with the       16 (32 percent) of the 50 beneficiaries in our sample. We
lawful presence payment provisions.        subsequently obtained evidence of lawful U.S. presence from 11 of
                                           the 16 beneficiaries. The remaining 5 (10 percent) did not provide
Background                                 evidence of their lawful U.S. presence. As a result, we could not
                                           confirm whether benefit payments totaling $384,582 were proper.
The Social Security Act restricts the      SSA had retained sufficient evidence of the remaining 34
payment of Title II benefits to            beneficiaries’ (68 percent) lawful presence in the United States.
noncitizens in the United States. Any
noncitizen applying for benefits must      Our Recommendations
be lawfully present in the United States
to receive benefits.                       We recommend that SSA:

Under the lawful presence payment          1. Take appropriate action to determine whether the five
provisions, claimants must submit             beneficiaries identified by our audit are lawfully present in the
appropriate original documents issued         United States and should be paid benefits.
by the Department of Homeland
Security (DHS), such as the Alien          2. Document evidence of lawful presence in the United States for
Registration Receipt Card (I-551) or          the 16 beneficiaries identified by our audit.
Arrival/Departure Record (I-94),
documenting their lawful presence in       3. Remind employees that they must retain evidence of lawful
the United States when they apply for         presence in the United States.
benefits. SSA employees use DHS’
                                           SSA agreed with our recommendations.
online Systematic Alien Verification
for Entitlements (SAVE) program to
validate the claimant’s lawful presence
status before awarding benefits.
Finally, SSA policy requires that it
maintain all supporting material
pertinent to an individual’s claim.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     SSA’s Controls over Payments to Noncitizens..........................................................................3
     Evidence of Beneficiaries’ Lawful Presence in the United States .............................................4
Conclusion .......................................................................................................................................4
Recommendations ............................................................................................................................5
Agency Comments ...........................................................................................................................5
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)
ABBREVIATIONS
DHS                  Department of Homeland Security

I-551                Alien Registration Receipt Card

I-94                 Arrival/Departure Record

MBR                  Master Beneficiary Record

OIG                  Office of the Inspector General

SAVE                 Systematic Alien Verification for Entitlements

SSA                  Social Security Administration




Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)
OBJECTIVE
Our objective was to assess the effectiveness of the Social Security Administration’s (SSA)
controls to ensure it pays beneficiaries in accordance with the lawful presence payment
provisions.

BACKGROUND
The lawful presence payment provisions of the Social Security Act 1 restrict the payment of
Title II benefits to noncitizens in the United States. Any noncitizen applying for benefits after
December 1, 1996 must be lawfully present in the United States to receive benefits. 2 Noncitizen
beneficiaries must submit appropriate original documents issued by the Department of Homeland
Security (DHS), such as the Alien Registration Receipt Card (I-551) or Arrival/Departure Record
(I-94), documenting their lawful presence in the United States when they apply for benefits. 3 In
addition, SSA employees use DHS’ online Systematic Alien Verification for Entitlements
(SAVE) program 4 to validate the claimant’s lawful presence status before awarding benefits. 5
Finally, SSA policy requires that it maintain all supporting material pertinent to an individual’s
claim, including evidence submitted to establish lawful presence in the United States. 6

For our review, we identified 885,019 Title II beneficiaries in current pay who, according to the
Numident and Master Beneficiary Record (MBR), were noncitizens who were lawfully present
in the United States. From this population, we selected a random sample of 50 beneficiaries to
determine whether SSA had adequate controls to ensure it retained documentation of their lawful
U.S. presence (see Appendix A).




1
  Personal Responsibility and Work Opportunity Reconciliation Act of 1996, Pub. L. No. 104-193, Title IV, § 401,
110 Stat 2105, 2261; codified at 8 U.S.C. § 1611(b)(2); The Illegal Immigration Reform and Immigrant
Responsibility Act of 1996, Pub. L. No. 104-208, Division C, Title V, Subtitle A, § 503(a), 110 Stat. 3009-546,
3009-671, inserted the lawful presence requirement specifically into the Social Security Act. See Section 202(y) of
the Social Security Act, 42 U.S.C.§ 402(y).
2
    SSA, POMS, RS 00204.010 (May 9, 2011).
3
    SSA, POMS, RS 00204.025.B (August 20, 2012).
4
 SAVE provides a way for Federal, State, and local government agencies to verify an applicant or recipient’s
immigration status. SSA is required to use SAVE to verify all DHS evidence of lawful alien status and certain
evidence of U.S. citizenship.
5
    SSA, POMS, RS 00204.020.C.4 (February 7, 2012).
6
  SSA, POMS, GN 00301.286 (August 9, 2013), GN 00303.440.C (February 22, 2012), GN 00301.285
(July 22, 2010).



Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)                1
RESULTS OF REVIEW
SSA needs to improve its controls to ensure it pays beneficiaries in accordance with the lawful
presence payment provisions. SSA did not obtain or retain evidence of lawful U.S. presence for
16 (32 percent) of the 50 beneficiaries in our sample. We subsequently contacted 11 of these
beneficiaries and obtained evidence of their lawful U.S. presence. The remaining 5 (10 percent)
did not provide us evidence of their lawful U.S. presence. 7 As a result, we could not confirm
whether benefit payments totaling $384,582 were proper. SSA had retained sufficient evidence
of the remaining 34 beneficiaries’ (68 percent) lawful U.S. presence (see Appendix B). The
following chart summarizes the results of our review.

                               Figure 1: Evidence of Lawful U.S. Presence




7
    One beneficiary died in March 2013.



Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)   2
SSA’s Controls over Payments to Noncitizens
Under the lawful presence payment provisions, to pay benefits, SSA must have evidence in its
records that establishes a beneficiary has been lawfully present in the United States for an entire
calendar month. 8 The evidence must sufficiently establish an audit trail, permit obtaining the
document, and support the determination of lawful U.S. presence. 9

When noncitizens apply for benefits, they must submit evidence to prove their lawful presence in
the United States. The evidence submitted must be an acceptable immigration document that
indicates their immigration status, such as the I-551. The evidence must be current and an
original or certified copy from the issuing agency.

SSA employees then use SAVE to verify the authenticity and validity of the evidence with
DHS. 10 SSA employees must submit the following information to SAVE for verification:

      DHS document type,
      applicant’s alien number,
      applicant’s first and last name,
      applicant’s date of birth, and
      type of benefit for which the applicant is applying.

SAVE assigns a verification number to each request it receives and provides SSA with the
applicant’s current immigration status for those requests it can verify. If SAVE does not verify
the applicant’s status, it will direct SSA to initiate additional verification procedures, such as
submitting other names the applicant may have used and a copy of the original immigration
document electronically or through the mail to DHS for manual verification.

SSA employees must re-verify the status of beneficiaries whose lawful presence status is
conditional or temporary with DHS before their current authorized stay expires. These
beneficiaries must provide evidence of an extension of their temporary lawful status or a change
to permanent lawful status to continue receiving benefits. 11 SSA is required to suspend payments
to beneficiaries who do not provide evidence of lawful presence. 12 Finally, SSA policy requires
that its employees document the following evidence of lawful presence status: the DHS
document type verified (for example I-551, I-94), the date of issuance, an annotation of “SAVE
verified,” and the verification number from the SAVE query response.


8
    SSA, POMS, RS 00204.010.B.1 (May 9, 2011).
9
  SSA POMS, GN 00301.286 (August 9, 2013), GN 00303.440.C (February 22, 2012), GN 00301.285
(July 22, 2010).
10
     SSA, POMS, RS 00204.020.C (February 7, 2012).
11
     SSA, POMS, RS 00204.025 (August 20, 2012).
12
     SSA, POMS, RS 00204.010.B.4 (May 9, 2011).



Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)   3
SSA also has controls in place to prevent improper payments to beneficiaries who are not
lawfully present in the United States. When SSA employees process an application for benefits,
they must record on the MBR whether they are U.S. citizens or noncitizens who are lawfully
present in the United States. Based on the citizenship and lawful presence data on the MBR,
SSA’s Title II system will determine whether it should pay current benefits and will suspend
benefits for any months a noncitizen beneficiary is not lawfully present in the United States. In
addition, the Title II system identifies and suspends payments to beneficiaries, who, according to
the MBR, are not U.S. citizens or who are no longer lawfully present in the United States. 13

Evidence of Beneficiaries’ Lawful Presence in the United States
SSA had not obtained or retained sufficient evidence supporting whether 16 of the 50
beneficiaries in our sample were lawfully present in the United States. Although the MBR
indicated that SSA had obtained evidence of their lawful presence, our review of SSA’s records
found that it had not obtained or retained a valid alien registration number, SAVE verification
number, or copy of the original DHS document for these 16 beneficiaries. As a result, we could
not verify with DHS whether these beneficiaries were lawfully present in the United States.

We subsequently contacted the beneficiaries, obtained the required evidence of lawful U.S.
presence from 11 of the 16, and verified that evidence with DHS. The remaining five 14 did not
provide us evidence of their lawful U.S. presence. As a result, we could not confirm whether
benefits payments totaling $384,582 were proper.

For example, SSA paid a noncitizen beneficiary $78,594 between December 2002 and
December 2013. However, there was no evidence in SSA’s records of her lawful presence in the
United States. Specifically, there was no alien number, SAVE verification number, or copy of
the DHS document. The beneficiary did not respond to our requests for evidence of lawful
presence. As a result, we could not verify whether she was lawfully present in the United States.

CONCLUSION
SSA needs to improve its controls to ensure it pays beneficiaries in accordance with the lawful
presence payment provisions. SSA did not obtain or retain evidence of lawful U.S. presence for
16 (32 percent) of the 50 beneficiaries in our sample. We subsequently obtained evidence of
lawful U.S. presence from 11 of the 16 beneficiaries. The remaining 5 (10 percent) did not
provide evidence of their lawful U.S. presence. As a result, we could not confirm whether
benefit payments totaling $384,582 were proper. For the remaining 34 beneficiaries
(68 percent), SSA had retained sufficient evidence of their lawful presence in the United States
(see Appendix B). After SSA has determined the status of the five remaining beneficiaries, we
will determine whether additional audit work is warranted.



13
     SSA, POMS, RS 00204.010 B.4 (May 9, 2011).
14
     One beneficiary died in March 2013.



Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)   4
RECOMMENDATIONS
We recommend that SSA:

1. Take appropriate action to determine whether the five beneficiaries identified by our audit
   are lawfully present in the United States and should be paid benefits.

2. Document evidence of lawful presence in the United States for the 16 beneficiaries identified
   by our audit.

3. Remind employees that they must retain evidence of lawful presence in the United States.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)   5
                                        APPENDICES




Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)
Appendix A – SCOPE AND METHODOLOGY
We obtained from the Social Security Administration’s (SSA) Master Beneficiary Record
(MBR) and Numident, a population of 885,019 Title II beneficiaries in current pay status, who,
according to the Numident and MBR, were noncitizens living in the United States and whose
lawful presence status had not expired as of March 2012. These beneficiaries filed for benefits
on or after January 1, 2000. From this population, we selected a random sample of 50
beneficiaries for review.

To accomplish our objective, we

   reviewed the applicable sections of the Public Laws, the Code of Federal Regulations, the
    Social Security Act, and SSA’s Program Operations Manual System;

   interviewed SSA employees from the San Francisco Regional Office and Office of Systems;

   reviewed a random sample of 50 beneficiaries who were in current pay and were noncitizens
    living in the United States according to the MBR and Numident;

   reviewed queries from SSA’s MBR, Numident, Supplemental Security Record, Modernized
    Claims System, and Modernized Supplemental Security Income Claims System as well as
    the Shared Evidence Screen, Claims Folder Records Management System, Paperless System,
    and Paper Folders;

   verified the Department of Homeland Security online Systematic Alien Verification for
    Entitlements program to validate the claimant’s lawful presence status when we are able to
    identify evidence of lawful presence for the beneficiaries;

   requested that SSA staff contact those beneficiaries in our sample whose lawful presence was
    not documented;

   sent letters and attempted to telephone beneficiaries to obtain evidence of their lawful
    presence in the United States; and

   determined the amount of unsupported payments made to the 16 beneficiaries for whom SSA
    did not have evidence of their lawful presence in the United States.

We determined whether the computer-processed data from the MBR and Numident were
sufficiently reliable for our intended use. We tested the data to determine their completeness and
accuracy. These tests allowed us to assess the reliability of the data and achieve our audit
objective.

We conducted audit work in Richmond, California, and Baltimore, Maryland, between
March 2013 and January 2014. The entities audited were the Offices of the Deputy
Commissioners for Operations and Systems.




Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)   A-1
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)   A-2
Appendix B – SAMPLING METHODOLOGY AND RESULTS
From the Social Security Administration’s (SSA) Master Beneficiary Record (MBR) and
Numident, we obtained a population of 885,019 Title II beneficiaries in current pay status,
whom, according to the Numident and MBR, were noncitizens living in the United States whose
lawful presence status had not expired as of March 2012. These beneficiaries filed for benefits
on or after January 1, 2000. From this population, we selected a random sample of
50 beneficiaries for review.

For each of the 50 beneficiaries, we reviewed SSA records for evidence of lawful presence. We
verified any identified evidence with the Department of Homeland Security’s (DHS) online
Systematic Alien Verification for Entitlements (SAVE) program to validate the beneficiaries’
lawful presence. If evidence of lawful presence was missing from SSA’s records or invalid, we
contacted the beneficiaries to obtain the evidence required to verify their immigration status.

SSA did not obtain or retain evidence of lawful U.S. presence for 16 beneficiaries whom it paid
benefits totaling $1,128,486. We subsequently confirmed that 11 beneficiaries who were paid
benefits totaling $743,904 were lawfully present in the United States, but we could not confirm
lawful presence in the United States for 5 beneficiaries who were paid benefits totaling
$384,582 as of December 2013.

The following tables provide the details of our sample results.

                               Table B–1:Population and Sample Size
                   Description                                            Beneficiaries
                  Population Size                                           885,019
                   Sample Size                                                    50

                              Table B–2: Evidence of Lawful Presence
           Description                           Beneficiaries                    Benefits Paid
Lawful Presence Confirmed by OIG                      11                             $743,904
Lawful Presence Not Confirmed                          5                             $384,582
SSA Did not Obtain or Retain
                                                       16                           $1,128,486
Evidence of Lawful Presence




Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)   B-1
           Appendix C – AGENCY COMMENTS




                                             SOCIAL SECURITY

MEMORANDUM


Date:      April 28, 2014                                                                  Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Title II Beneficiaries Receiving Benefits Under
           the Lawful Presence Payment Provisions” (A-09-12-21288) - INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)   C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"TITLE II BENEFICIARIES RECEIVING BENEFITS UNDER THE LAWFUL
PRESENCE PAYMENT PROVISIONS" (A-09-12-21288)


Recommendation 1

Take appropriate action to determine whether the five beneficiaries identified by our audit are
lawfully present in the United States and should be paid benefits.

Response

We agree. We will review the five beneficiaries and take appropriate action as soon as
possible and no later than the end of fiscal year (FY) 2014.

Recommendation 2

Document evidence of lawful presence in the United States for the 16 beneficiaries identified
by our audit.

Response

We agree. We will document the evidence of lawful presence for the 16 beneficiaries by the
end of FY 2014.

Recommendation 3

Remind employees that they must retain evidence of lawful presence in the United States.

Response

We agree. As soon as possible and no later than the end of FY 2014, we will remind
employees of the general procedures for documenting and retaining evidence, and specifically
address lawful presence cases.




Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)   C-2
Appendix D – MAJOR CONTRIBUTORS
James J. Klein, Director, San Francisco Audit Division

Joseph Robleto, Audit Manager

Manfei Lau, Senior Auditor

Wilfred Wong, Audit Data Specialist

Alla Resman, IT Specialist




Title II Beneficiaries Receiving Benefits Under the Lawful Presence Payment Provisions (A-09-12-21288)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
